<html>
<title> - 355-SHIP NAVY: DELIVERING THE RIGHT CAPABILITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 115-100]

            355-SHIP NAVY: DELIVERING THE RIGHT CAPABILITIES

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 12, 2018


                                     
		[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
		
		
		
                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-681                    WASHINGTON : 2019                                
                                     
  
  
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Geurts, James F., Assistant Secretary of the Navy, Research, 
  Development, and Acquisition; accompanied by VADM William R. 
  Merz, USN, Deputy Chief of Naval Operations for Warfare 
  Systems; and VADM Thomas J. Moore, USN, Commander, Naval Sea 
  Systems Command................................................     4

                                APPENDIX

Prepared Statements:

    Geurts, James F., joint with VADM William R. Merz and VADM 
      Thomas J. Moore............................................    35
    Wittman, Hon. Robert J.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
 
           355-SHIP NAVY: DELIVERING THE RIGHT CAPABILITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Thursday, April 12, 2018.
    The subcommittee met, pursuant to call, at 3:38 p.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. I want to call to order the House Armed 
Services Subcommittee on Seapower and Projection Forces.
    I want to thank our witnesses for joining us today. And we 
are here to discuss the 355-ship Navy and options that Congress 
may consider to deliver the required fleet.
    Appearing before us today to discuss this important topic 
are three esteemed Navy witnesses. The Honorable James Geurts, 
Assistant Secretary of the Navy, Research, Development, and 
Acquisition; Vice Admiral William R. Merz, Deputy Chief of 
Naval Operations for Warfare Systems; and Vice Admiral Tom 
Moore, Commander, Naval Sea Systems Command [NAVSEA].
    I want to thank you all for your service as well as for 
appearing before the subcommittee today to discuss the Navy's 
fleet requirements and various options for Congress to pursue 
to meet the Navy's needs.
    In previous hearings, I have expressed my concern as to the 
30-year shipbuilding plan's inability to reach the required 
355-ship Navy. The Navy's plan only reaches 342 ships by 2039. 
Critical shortfalls in aircraft carriers, and large-deck 
amphibs [amphibious assault ships], and attack submarines will 
severely challenge future Navy operations. And I am 
particularly troubled by the administration officials who 
advocate as to obtaining the required 355-ship Navy without 
consideration of other concerns expressed by this subcommittee.
    The 355-ship Navy is more than just a slogan. It is a 
requirement that was carefully considered by the Navy, enacted 
by Congress, and signed into law by the Commander in Chief. We 
need both quality and quantity to be successful in dissuading 
potential aggressors.
    As to this hearing today, I look forward to our panel 
discussing options that Congress may consider to fulfill our 
constitutional duty to provide and maintain the Navy. I think 
Congress has a multitude of options that could be pursued to 
limit Navy shortfalls and change the trajectory of our Navy's 
fleet. These options include expanding the Navy by building our 
way to meet the requirement. But I also believe that the Navy 
could pursue other options to improve maintenance as well as 
modernize and extend the fleet in service today.
    As to aircraft carriers, I believe that it is imperative 
that we rapidly obtain the required 12 aircraft carriers and 
pursue a 2-ship block procurement that has the potential to 
save more than $2.5 billion. Furthermore, we need to examine 
options to extend the current fleet which should include a 
careful examination of the service life available with Nimitz-
class aircraft carriers.
    Finally, I am particularly concerned about administrative 
limitations associated with the Department's intent to shock 
trial CVN 78 [USS Gerald R. Ford]. I understand that such a 
decision will delay the introduction of the USS Ford by 9 
months and delay significant learning that can only occur while 
this ship is underway.
    I am also concerned about the submarine force structure. We 
currently have 51 attack submarines and are on a rapid path to 
reduce this force structure to 42 submarines by 2028. This is 
the exact opposite direction to meeting the fleet requirement 
of 66 submarines.
    Fortunately, we have several options to alleviate this 
reduction, and I support an innovative effort by the Navy and 
Naval Reactors to extend the service life of five Los Angeles-
class attack submarines and using existing unused reactor 
cores. I am also supportive of adding new construction 
submarines in accordance with the Virginia-class multiyear 
procurement authorized in fiscal year 2018 NDAA [National 
Defense Authorization Act].
    With regards to our large surface combatants, this 
committee was instrumental in reversing a prior Navy course to 
decommission half of our existing cruisers. I am glad that we 
have been able to turn the tide on this budget proposal, but 
there is more work to be done. Many of our older destroyers 
have not been adequately modernized. The lack of budget 
authority has stranded many Flight I and Flight II destroyers 
and impaired our ability to meet their required service life.
    While the Navy has done a very good job in preparing a plan 
for the service life extensions of cruisers, amphibs, and 
submarines, I think that we need to provide significant 
emphasis on the modernization of the older destroyer fleet.
    Finally, our auxiliary fleet is in need of serious 
upgrades. And I don't think anyone would agree that a 42-year-
old surge lift sea fleet is sufficient.
    The Army indicated that they face an unacceptable risk in 
force production beginning in 2024 because of the deficient 
surge sealift fleet. The Navy's recapitalization proposal does 
not meet the Army timelines. It is a classic military service 
gap issue. We need to close this seam.
    As this is our last hearing before the NDAA markup, I think 
it is appropriate to consider the words of our first President. 
And in the conversations with Marquis de Lafayette at the 
conclusion of the Revolutionary War, George Washington was 
attributed to saying, ``Without a decisive naval force, we can 
do nothing definitive, and with it, everything honorable and 
glorious.''
    Our forefathers knew the power attributed to a standing 
Navy. As we prepare for the testimony of this esteemed panel, I 
hope that we can remember the importance of our naval forces, 
their deterrent value, a deterrent value to war.
    I would now like to turn to our ranking member, Mr. 
Courtney, thank him for his leadership, and, Joe, for your 
remarks.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES.

    Mr. Courtney. Great. Thank you, Mr. Chairman, and thank you 
to our witnesses for once again coming over to testify before 
the subcommittee to discuss the future of the Navy size and 
force structure.
    In 2016, the Department of the Navy produced a new Force 
Structure Assessment [FSA] which determined that the Navy our 
Nation needs is a 355-ship Navy, up from the prior 2014 FSA 
that set a target of 308 ships. This is not a number that the 
Navy came to simply because it believed it needed a larger 
force. It reviewed and validated the stated requirements and 
the real-world demands faced by our combatant commanders. And 
it looks to present challenges and those expected in the 
decades ahead.
    Unfortunately, as the chairman said, the administration's 
last two budget requests have fallen short of a plan to achieve 
the goal of attaining the 355-ship level in a strategically 
meaningful amount of time. The latest long-term shipbuilding 
plans do not achieve that level at any time in the next three 
decades and likely will not under current estimates until the 
2050s.
    The good news is, is that the Navy itself has made clear in 
the new shipbuilding plan that there is room to grow our 
investments in ships and submarines above and beyond the plan 
laid out in the 2019 budget. Our subcommittee last year worked 
hard on a bipartisan basis to produce a defense bill that 
adding new ships provided strong multiyear authorizations that 
made clear that achieving a 355-ship Navy is the law of the 
land and feasible within a shorter timeframe.
    All three of our witnesses have been before our panel in 
public testimony and private meetings regularly over the last 
few weeks and months. I hope that you have all come away from 
these sessions with a good understanding of how our 
subcommittee works well together to produce a solid bill in 
support of shipbuilding and our at-sea capabilities.
    Above all, I hope you have gotten the message loud and 
clear that we are ready to move ahead in a constructive way to 
do all we can to achieve the 355-ship Navy. What we need from 
you as we begin our work in the 2019 defense bill is a 
commitment to work with us to utilize all the tools that we 
have available here in Congress and the Navy to get to that 
target.
    At the same time, I think we all understand that achieving 
this higher force is not going to happen overnight, nor is it 
something that we can simply build our way into in the next 5 
or 10 years. We need a comprehensive approach that includes not 
only building new ships to making sure that we maximize the 
capability and availability of our existing fleet. A ship in 
extended dry dock, or worse sitting pier side waiting to be 
dry-docked, is of no use to our combatant commanders and only 
puts more strain on an overstretched fleet.
    I have shared with our witnesses my ongoing concern about 
continued delays and shortfalls in maintaining our ships, 
particularly with our attack submarine fleet. I have seen 
promising testimony from the Navy this year about the 
recognition of the need for a more comprehensive approach that 
leverages available capacity in both our public and private 
shipyards. However, we have more work ahead to ensure that we 
are moving forward in the smartest way possible, and I look 
forward to discussing this issue further with our witnesses 
today.
    Our job in Congress is to deliver the authority and 
resources. It is the Navy's job to execute those authorities 
and resources. I look forward to the discussion with our 
witnesses today to deliver the right mix of capabilities as we 
drive forward towards growing the fleet that the Nation needs.
    And with that, I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Joe. Thanks again for your 
leadership.
    I want to now turn to our panel. And Assistant Secretary 
Geurts, I understand that you are going to be making the 
statement for the panel, so I will turn the floor to you.

STATEMENT OF JAMES F. GEURTS, ASSISTANT SECRETARY OF THE NAVY, 
  RESEARCH, DEVELOPMENT, AND ACQUISITION; ACCOMPANIED BY VADM 
  WILLIAM R. MERZ, USN, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
  WARFARE SYSTEMS; AND VADM THOMAS J. MOORE, USN, COMMANDER, 
                   NAVAL SEA SYSTEMS COMMAND

    Secretary Geurts. Thank you, sir.
    Chairman Wittman, Ranking Member Courtney, distinguished 
members the subcommittee, thanks for the opportunity to appear 
before you today to address the Department of Navy's plans to 
deliver the right capabilities for the Navy's 355-ship plan.
    I am joined here today by Vice Admiral Bill Merz, Deputy 
Chief of Naval Operations for Warfare Systems, and Vice Admiral 
Tom Moore, Commander of the Naval Sea Systems Command.
    With your permission, I intend to provide brief opening 
remarks for the three of us, and submit our statement for the 
record.
    Mr. Wittman. Without objection.
    Secretary Geurts. As detailed in the 2018 National Security 
Strategy and the 2018 National Defense Strategy, in order to 
retain and expand our competitive advantage, it is imperative 
we continuously adapt to the emerging security environment and 
do so with a sense of the urgency. This requires the right 
balance of naval readiness, capability, and capacity as well as 
budget stability and predictability. It requires a Navy of at 
least 355 ships.
    The fiscal year 2018 Bipartisan Budget Act and the fiscal 
year 2019 President's budget request chart a course to begin 
building this larger, more capable battle force our Nation 
needs. Strong congressional support in 2018 Bipartisan Budget 
Act funded 14 ships in 2018, an increase of 5 ships including 
the lead Flight II LPD [amphibious transport dock] 17 class 
amphibious ship. It also includes strong support for the 
critical industrial base, a key element of our national 
security. Thank you for that unwavering support.
    The 2019 budget request builds towards this larger, more 
capable force and reflects the continuous commitment to produce 
a 355-ship Navy. When compared to the 2018 budget request, 2018 
adds 11 more ships over the FYDP [Future Years Defense Program] 
for a total of 54 ships, with 3 additional ships in fiscal year 
2019 as well as advanced procurement for the Columbia SSBN 
[ballistic missile submarine].
    As stated upfront in our fiscal year 2019 shipbuilding 
plan, the Navy continues to aggressively pursue options to 
accelerate the achievement of a 355-ship Navy. Executing the 
ship construction profiles in the shipbuilding plan, coupled 
with extending the service life of the DDG 51 class [Arleigh 
Burke-class guided missile destroyer] and targeted service 
extensions of up to five SSNs [attack submarines], this 
provides an achievable strategy to accelerate reaching our goal 
of 355 ships from the 2050s to the 2030s.
    As this service life analysis work continues across all 
classes of ships, you will see adjustments to our timelines in 
subsequent shipbuilding plans. As we accelerate growing our 
Navy to meet the 355-ship Navy requirement, we will also be 
working to ensure we deliver overall best mix of naval 
capabilities to meet the National Defense Strategy including 
focus on our logistics fleet and our hospital ships.
    We look forward to continuing to work closely with this 
subcommittee on the options and opportunities to achieve this 
Navy the Nation needs and do so urgently and affordably. We 
thank you for the strong support of the committee that has 
provided the Department of the Navy the opportunity to deliver 
on our 355-ship requirement, and we look forward to answering 
your questions.
    [The joint prepared statement of Secretary Geurts, Admiral 
Merz, and Admiral Moore can be found in the Appendix on page 
35.]
    Mr. Wittman. Very good. Thank you, Secretary Geurts. 
Appreciate all of your efforts. And both Vice Admiral Merz and 
Vice Admiral Moore, thank you all so much for being here with 
us today.
    Let me begin quickly, and then I am going to go to my 
colleagues here.
    To you Vice Admiral Merz, in looking at the existing 
destroyer fleet and looking at the modernization plans, it does 
appear as though there is a significant gap in modernizing 
Flight I destroyers and Flight II destroyers. And there is 
significant gaps there. And it seems like a lot of those ships 
are not going to make it to their expected service life because 
we are essentially front-loading much of the modernization on 
later generation Flight IIs and Flight IIAs. And I understand 
that with upgrading radars and baseline 9 improvements through 
the Aegis programs.
    But I wanted to get your perspective on how do we take 
advantage of those existing ships to get the full service life 
expectations out of those ships, especially with a lot of the 
technology that is there today? Mr. Norcross and I had an 
opportunity to travel to the Aegis operational center there 
where they are bringing in some of the new radars to test up in 
Morristown, New Jersey, as well as Lockheed. And we have had 
conversations with Raytheon.
    There is a lot of technology out there that seems to me 
that could be put into these Flight I destroyers and Flight II 
destroyers that would give us capability that extends well into 
the years, gets us more quickly to the 355-ship number, and 
really modernizes these systems as the Navy envisions this 
multi-ship platform increased lethality into the future battle 
space.
    So give me your perspective on how the Navy envisions that 
going in the future.
    Admiral Merz. Yes, sir, Mr. Chairman. And thanks for that 
question, because it really does tee up a little bit larger 
conversation on how we are approaching the DDG 51 class.
    So as promised and as stated in the shipbuilding plan, you 
know, we saw a path to accelerate this 355 achievement as 
quickly as to the 2030s. And recently, NAVSEA completed the 
analysis of that class. So we will, in fact, be extending the 
entire class out to 45 years.
    And this gets directly to your question. Okay. Now what? 
What are we going to do with the ships along the way?
    So there is a couple types of service life extensions. 
There is the individual hull platforms. A little bit laborious, 
ship by ship, got to figure out how to do it, when to do it, 
and kind of cram it into the plan.
    Mr. Wittman. Now, that part of it, let me just jump in real 
quick. That part of the plan is the what the Navy terms HM&E, 
hull, mechanic, electrical, and the upgrades there, aside from 
the ship systems upgrades?
    Admiral Merz. It is typically both. We will have to look at 
the whole envelope of the ship. And that is how we go through 
the lens of can we, should we. The opportunity cost versus 
buying new. And it is a pretty structured approach.
    The much more productive and helpful extension is when we 
extend the entire class. And due to the terrific work of the 
NAVSEA engineers, we have come through that, I would say pretty 
quickly. Unfortunately, it was not completed in time for the 
current shipbuilding plan, but it will certainly be reflected 
in subsequent plans.
    So with that, now we know the life expectancy of the entire 
class, and then we can roll in the right maintenance and 
modernizations much more efficiently, much more affordably for 
the entire duration of the class.
    The good news is--I mean, there is no destroyer left behind 
under the old plan. Every destroyer will be modernized. And 
there is two--we talk in terms of baselines. There is three 
fundamental baselines the entire class will end up with. You 
will either be a 5.4, 9, or 10. All of them provide a ballistic 
missile defense capability, which is fundamentally the 
requirement we have to have.
    So whether that carries these through the life of the ship 
with the extension, we have time to work through that on what 
it will take. And the threat will get a big vote in how we do 
that.
    So how does this affect the 355-ship number is it does, 
as--you know, as we stated in the shipbuilding plan, the 355 
will now be arriving in the mid 2030s. And that is only with 
the DDG [guided missile destroyer] extensions. That does not 
include candidate options for three SSNs per year or any other 
service life extensions in and around the time period.
    Typically the individual hull life extensions will only 
help you smooth the ramp. They don't really affect the overall 
number in the end on when you achieve it. But a class-wide 
extension does, and that is what you are seeing.
    So with the extension of that class, with the modernization 
efforts with that class, we don't get the correct mix in the 
2030s, but it is not a bad mix. If you have to have extra 
ships, destroyers are good ones to have. And then we will work 
with Congress on how we manage that inventory, because we don't 
want them to come at the expense of the new construction, 
especially the overall driver of the correct mix, which is the 
SSN. So we will have to manage that very, very quickly.
    And right now under the current plan, that is still at the 
2048 timeline. But like I said, we have done--that does not 
include any extra submarines in any particular years. And of 
course the CVN plan also is one of the lengthier ones, sir.
    Mr. Wittman. Very good. Thank you, Admiral Merz.
    I will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Well, it looks like you guys made a little news already 
today by moving the needle from 2050s to 2030s. So we are on a 
roll. Maybe we can keep going.
    That is right. Well, that is going to be my next question.
    Secretary Geurts, you know, as I mentioned in the opening 
statement, you know, we in Congress want to help you by 
maximizing tools to boost shipbuilding. And in the last NDAA in 
the omnibus, we provided the Navy with authority to add more 
submarines into the block contract that you are negotiating 
right now.
    Last year, actually, Acting Assistant Secretary Stiller 
testified that the Navy, quote, ``has the ability in a 
multiyear contract to also ask for option pricing for 
additional ships.'' And then yourself in testimony last month, 
when we asked about the most efficient way to procure extra 
submarines in fiscal year 2022 and 2023 stated that the most 
efficient way would be able to try to get those into the 
multiyear.
    So I guess my question is, you know, can you provide an 
update to the subcommittee on your efforts to take advantage of 
those options that Ms. Stiller and you testified before the 
committee over the last year or so?
    Secretary Geurts. Yes, sir. I appreciate it.
    And as Admiral Merz said, great news working with Admiral 
Moore's team. Getting 355 sooner, that doesn't alleviate the 
challenges we have on the submarine side but gives us something 
to look at.
    So, again, we are taking a twofold approach. One is, as we 
spoke about in the last hearing on submarines, looking at 
service life extension for about five SSNs. Very targeted. That 
is a very specific hull analysis. And we think we are in a 
pretty good shape there. We will prove it with the first one 
this year. And then that will give us a little benefit. And 
then the second is where can we accelerate production should 
that be affordable and in the budget.
    We are looking at adding those two submarines into the 
contracting process. We are working through the mechanics of 
exactly how to do that. We have spoken with your staff of what 
that looks like in terms of budget impact, and we are 
continuing to refine those numbers.
    So, yes, I am still committed to having options in that 
contract for additional submarines in 2022 and 2023 should that 
be something we jointly decide to do and can afford.
    Mr. Courtney. Great.
    Well, as you said, our staff and your team are talking 
about ways that, with the mark, you know, we can help 
facilitate that, because it is the smartest way to stretch 
dollars and get us again closer to the target.
    And one other question. You know, Admiral Moore, in your 
written testimony in the Senate yesterday, which we actually do 
follow the House of Lords a little bit over here, you painted 
two different pictures for how the Navy manages private sector 
ship repair. When you discussed the non-nuclear fleet, you 
stated that the Navy is committed to working collaboratively 
with industry to provide them a stable and predictable workload 
in a competitive environment moving forward so that they can 
hire the workforce and make the investments necessary to 
maintain and modernize a growing non-nuclear fleet. But then 
when you discussed the nuclear fleet, you stated only that the 
Navy would consider private sector maintenance work during peak 
periods to ensure the health of the private sector nuclear 
base.
    I mean, you have heard me before, and, you know, we have 
had this discussion with Secretary Geurts. I mean, it seems 
that the picture that you painted for the non-nuclear fleet 
about, you know, again maximizing speed in terms of getting the 
work done as well as leveling off workload, I mean, really does 
apply for the nuclear side as well. And, again, I just wonder 
if you could sort of, you know, describe whether I am reading 
too much into, you know, there being a disparity there in terms 
of your approach or not.
    Admiral Moore. Thanks for the question, Congressman.
    You may be reading a little bit into it. You know, on the 
private sector side for the non-nuclear ships, it is all done 
by the private sector, and it is in a competitive base. So I 
have got one sector I have to focus on. On the nuclear 
industrial base, I have both the--I have both Electric Boat and 
Newport News Shipbuilding who have the capacity to do repair 
work in addition to the new construction. And then I have the 
naval shipyards.
    And so I have a responsibility also to maintain an organic 
capability to do nuclear repair. So my comments were really--
were relative to the fact that I have a responsibility to 
maintain both. I have got to maintain a strong healthy 
industrial base, a nuclear repair base organically in the naval 
shipyards. That is by law.
    But I also have to provide--recognize that it is also very 
important for us to maintain the health of the overall nuclear 
industrial base at Newport News Shipbuilding and Electric Boat. 
And so, you know, where we have fallen short in the past couple 
of years is we have at the last second decided, hey, I don't 
have the capacity in the naval shipyards, and so, here, could 
you do this submarine work for me.
    I think my comments were relative. We have got to get out 
in front of that, and we have got to maintain a stable workload 
in the naval shipyards for very good reason, because they are 
the principal--they do the principal work on both our carriers 
and our submarines. But you also have to factor in the fact 
that, when I got workload that I am going to be challenged on, 
I need to give Electric Boat and Newport News Shipbuilding 
enough heads-up so they can be successful as well. And if they 
have periods where they are significantly--where they don't 
have a lot of work, it would make sense for us to make sure 
that we consider them in the decisions on what we are going to 
do for, in particular, for submarine maintenance, because it 
is--you know, their health is important to us.
    It is hard to expect them to be successful on the new 
construction side of the house if they are in this boom-and-
bust cycle as well. So it really was meant to--the fact that I 
have got to balance two pieces on the nuclear repair side where 
on the industrial non-nuclear side I am really looking at one 
component.
    Mr. Courtney. Well, I appreciate that. And, again, as you 
know, we want to work with you on that.
    You know, again, given the history with the SSN in sort of 
the poor cousin at the public yards, you know, again we think 
there really is a sweet spot here where we can find a solution.
    With that I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Geurts, Admiral Richardson had a white paper talking 
about carriers that, if we bought them on a 3- or 4-year cycle 
instead of 5 or more that we could catch up on the 12-carrier 
issue, but yet the budget doesn't do that. And then also can 
you talk to us about why that is the case. And then on the 
block buy for the CVN 80 and 81 [Ford-class aircraft carriers], 
if we did that, it would save 2\1/2\-plus billion dollars.
    Is that analysis on that savings right, been done? And what 
are the plans on our trying to avoid the carrier gaps?
    Secretary Geurts. Yes, sir. And obviously carriers are a 
key component of our national security. We are watching those 
closely.
    On the timeline, you know, that can be an affordability 
issue of, you know, how quickly can we move those centers 
together and how do we balance that amongst all the other 
requirements. Admiral Merz may want to comment a little bit 
more on that from an overall requirement standpoint.
    But, yes, the number of years in those centers drives our 
ability to get to the full FSA requirement for the CVNs.
    On the two-carrier buy, I think as we spoke in the last, we 
are asking the shipyard to sharpen the pencil. We have asked 
them formally for the cost. In looking at, you know, all the 
technology available, all the new ways of building, and then 
what cost savings could we get by putting those two ships 
together on a block buy, they are working on that. As we speak, 
we have already released a formal request for quotes. We should 
have that coming in the early summer, both their response and 
our analysis of that response.
    It is not quite the same as when we did it in the Nimitz 
class, because we have already started construction of CVN 80, 
so the savings are a little bit dependent on exactly when 
should we go into such an agreement that would occur. But I 
believe there are substantial savings available. We will get 
that refined down to a number we can go work and work with the 
Congress to understand if that is something we jointly want to 
pursue further.
    So I will have, bottom line, some better numbers coming 
here in the next month, month and a half, and work closely with 
the committee on those in a way forward.
    Mr. Conaway. Okay. On the--I met with General McDew on the 
Ready Reserve Fleet that is 40-plus years old.
    Any consideration to buying foreign ships and/or used ships 
to shorten our--shorten the overall life of the Ready Reserve 
Fleet?
    Secretary Geurts. Yes, sir. I think there is a number of 
options that are available to us, some that you have, you know, 
already authorized for a small number. I think there is 
probably a larger number where we could buy used, could be 
foreign built but U.S. flag ships.
    There is opportunities there, and then there is 
opportunities to accelerate design of a new ship should we want 
to do a new construction. So I think there is a couple 
different levers we can pull. One is extend the ships we have 
until the end of their service life. Another is buy used to 
give us some room. And then the third would be new 
construction, potentially in the modular way where we are not--
we can get shared use of a common hull across many missions.
    Mr. Conaway. It always makes me a little nervous when you 
decide to redesign a new ship for--that is basically a 
commercial vessel already that, you know, that the commercial 
side has tried to find out ways to do that better, quicker.
    Secretary Geurts. Yes, sir. The new piece would be how do 
we take what is probably a common hull and be able to use it in 
multiple missions.
    Mr. Conaway. I gotcha. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Conaway.
    We will now go to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank or 
witnesses for your testimony today, and thank you for your 
service to the country.
    Admiral Merz, if I could start with you. Earlier this week 
at the Sea, Air, and Space Exposition, you stated, and I quote, 
capability is where we would like to really--we would really 
like to put most of our energy, and we can make, as I quote, 
make our fleet more lethal much more quickly than just building 
capacity.
    So I agree with enhancing our capabilities is critical. But 
more capacity, of course, is also required to meet operational 
demand. So can you please describe how you think about the 
tradeoffs between adding capabilities quickly versus building 
out the required capacity? What is the right mix?
    Admiral Merz. Yes, sir.
    So the fundamental point of my comments was that balance 
that you are alluding to. We have essentially been surrendering 
the capability to keep whatever ships construction going that 
we could in the past. We really need to do both. As we explain 
it, if you just buy ships, you get what we call linear 
improvement in capability. You are just buying more of the same 
without a capability on top of it. Buying more ships and adding 
the advanced capability, you start getting a non-linear 
improvement. And then if you start connecting those ships 
together, you can maybe even get an exponential improvement.
    We can turn capability typically faster than we can turn 
the size of the Navy. So some of the advanced development 
efforts, such as hypersonics, directed energy, unmanned 
vehicles, you know, we think we have a pretty aggressive and 
positive technology vector to field this capability. And now we 
are just moving as aggressively as we can to resource it to 
bring it in as quickly as we can.
    I can do a lot more with the existing fleet using advanced 
capability than I can just by capacity alone. So that is 
fundamentally what I was referring to. That got interpreted 
that we are coming off the 355. Clearly, we are accelerating 
355 to the 2030s now. We are laser-focused on that number. And 
if anything, that number will probably grow in the future.
    Mr. Langevin. All right. Let me--as a follow-up. Our 
competitors continue, obviously, to pursue advanced 
capabilities as well. So what advanced technologies or 
capabilities are you most interested in investing in today as 
well as over the long term to increase both survivability and 
the lethality that you described?
    Admiral Merz. So, yes, sir, the--actually, the ones I just 
mentioned, the hypersonics and the directed energy, are 
probably the one that have the most interest. There is also 
enabling technologies that we are partnering with industry. 
Artificial intelligence is probably the most important. And we 
also have the--you know, our whole Accelerated Acquisition 
Board of Directors which is chaired by Secretary Geurts and the 
Chief of Naval Operations; it shepherds, identifies these 
technologies, and we will work closely with the committees to 
actually get them funded.
    I turn it over to Secretary Geurts. He has got a few more 
on these.
    Secretary Geurts. The only one I would add, and Admiral 
Merz has been outspoken about this before, is networking and 
network fires. So there is individual lethality on each of the 
ships, hypersonic, directed energy, some of those. And then 
there is how do we get the collective strength of the fleet by 
network fires and network-enabled operations and whatnot. And 
so we look at capability growth in kind of both of those 
dimensions.
    Mr. Langevin. Thank you, Secretary. Thank you, Admiral.
    So increasing the capability and capacity of our Navy 
obviously will require nurturing a more robust industrial base, 
and obviously this takes time as you can't develop journeymen, 
for example, shipbuilders overnight. How are you currently 
working to support the development and growth of the industrial 
base and is it sufficient to meet your specific requirements 
for an increase in production today, in 5 years, in a decade, 
you know, as we look out in the out-years.
    Secretary Geurts. Yes, sir, Congressman.
    I think there is, you know, some interesting intersections 
of that. Technology actually, in some of the shipyards, is 
enabling us to more quickly grow experience in the industrial 
base. That is not a panacea. That is not going to fix things 
overnight. But that does help us where we have both a mature 
workforce and then a growing workforce. And then the other 
piece is how do we try and get out of these boom-and-bust 
cycles so we don't train up an expert workforce to let them go, 
then come back 5 years or 10 years later and then try and train 
them up again. That is not a cycle of success for us.
    And so then to Representative Courtney's questions, how do 
we then link in maintenance and availability as another enabler 
to help balance workforce, to preserve that workforce. How do 
we bring in new technology to that workforce to enable them to 
be more effective, how both of those, I think, are 
opportunities for us to improve the way we have looked at this 
versus how we have done it in the past.
    Mr. Langevin. Very good.
    Thank you all. My time is expired. I have a couple other 
questions I will submit for the record. And if you could 
respond to those, I would appreciate it.
    Thank you, and I yield back.
    Mr. Wittman. Thank you, Mr. Langevin.
    We will now go to Mr. Byrne.
    Mr. Byrne. Good afternoon, gentlemen. For once I am not 
going to talk to you about LCS [littoral combat ship].
    I do want to talk to you about the follow-on frigate. And 
obviously--moving on to more important things.
    Obviously, the concept there is the last 20 small surface 
combatants are going to be frigates. And this is part of our 
distributed lethality concept. But unlike other navies, the 
frigate is not going to be our top-line surface combatant. It 
is at the lower end. And so a part of that mix also is we have 
got the bigger ships that can have greater lethality. This is 
at the lower end, so we get more of that distribution. So you 
got a tradeoff there between what they can do and what you are 
going to put on them and what they cost.
    So having said all of that, Mr. Geurts, what is the right 
target price for the new frigate.
    Secretary Geurts. So, sir, our current target, or, you 
know, for the first one is on the order of $1.2 billion, and 
the follow-on, $850 million is what we set. That was set prior 
to our award of down-selecting the five competitors. That 
dialogue is going on right now. That price may shift depending 
on what we get out of those studies.
    Mr. Byrne. Shift up or down?
    Secretary Geurts. That may shift. I would expect it to 
shift down both from the studies, and I would also expect it to 
shift down because of competition.
    So I would not take the numbers as a given. That was, as we 
set the program up, where we kind of looked at kind of 
capability versus cost. That is going to be a tradeoff of 
capability versus cost. It is not a budget, you know, get the 
capability at any cost. And we will be better informed this 
year through those studies. That will result in our fee for our 
final down-select to the final target numbers.
    Mr. Byrne. Well, the figure we had heard for a while, and I 
know things shift around, was 800. So obviously if you can get 
through this competition, get that number down, that is 
important to us as we try to balance things out.
    So, Admiral, with that in mind, from what I am hearing, it 
sounds like the piece here where you can move things around and 
perhaps get the lower price is the number VLS [vertical launch 
system] cells. And my understanding, the Navy is looking at 
between 16 and 32. So being a simpleton, it would just look to 
me you strike it down the middle, and 24 VLS cells seems to be 
about the right number.
    Do you have any comment on that?
    Admiral Merz. Yes, sir. I want as many as I can get. I 
mean----
    Mr. Byrne. Remember, we have to take into account cost.
    Admiral Merz. Yes, sir.
    So, you know, in the requirements RFP [request for 
proposal], lethality is a piece of that. It is cost. It is 
lethality. And all of those will compete to the final 
selection.
    Mr. Byrne. But do you have any thoughts about what the 
right number of VLS cells it would be?
    Admiral Merz. The right number is 32 or more. But we are 
willing to have that as part of the trade space when we make 
the final selection.
    And when you compare a frigate to a destroyer which has 
over 100 cells, you can see the mismatch we are trying to 
balance here as we balance distributed lethality and massed 
lethality. And we have to bring both to the fight. And this is 
very fundamental to an away-game Navy, that we pretty much 
bring what we have. So how you bring it and how you distribute 
it is very much as important to lethality per ship.
    Mr. Byrne. Well, I just will never forget the testimony we 
have from Admiral Harris about his early career in the Navy 
when he was looking at the Soviet Union's corvettes. And they 
were much smaller ships that had not a very large number of 
missiles on them, but they--he had to be worried about every 
one of them. And I know that is part of what the Navy is 
thinking. Does this have more platforms out there so our 
adversaries have to be worried about more of those platforms 
and what they are doing.
    So I just encourage you, as we try to figure out how to pay 
for submarines and aircraft carriers and destroyers and amphibs 
and maybe a new type of cruiser, I just heard that today, we 
have got to remember we can't spend too much on this lower-end 
ship so that we balanced everything out.
    With that, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Byrne.
    We will now go to Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, and to our 
witnesses.
    I remain a strong advocate for the Navy to include the 
modernization and the growth of its fleet. And I cannot, 
however, in good conscience watch the Navy grow irresponsibly 
without the backbone of critical ship repair and maintenance 
capabilities required to support the current fleet, let alone a 
larger one.
    So Assistant Secretary Geurts, last month, Vice Admiral 
Lescher told this committee that the Navy needs to assertively 
get after a growing public shipyard nuclear maintenance 
capability--or capacity. I also appreciated your personal 
commitment before this committee to ensure the Navy conducts a 
balanced report on ship repair capability in the Western 
Pacific.
    Notwithstanding the soon-to-be-finalized report on depot-
level ship repair, can you please speak to how the Navy is 
planning for the increased depot-level ship repair requirement 
that will go hand in hand with the modernization and the 
construction of a 355-ship Navy?
    Secretary Geurts. Yes, ma'am.
    As you indicate, our naval power comes to me from three 
elements. That is capacity, that is capability, and that is 
readiness. And we have got to make sure we are looking at all 
three elements of those so that we don't rapidly build a fleet 
that we can't support and can support both in peacetime and 
war.
    And so we are looking at both elements. Admiral Moore can 
talk specifically to the public yards and our growth plan 
there. But again, we have a 20-year growth optimization plan to 
get those public yards in the shape that they need to be. We 
need to be looking at the private yards, because that will 
likely be the next real challenge for us in the next 5 to 10 
years as availabilities grow, do we have a capacity on the 
capability we need in our private yard fleets to be able to 
take care of that? That is certainly an element we are looking 
at very closely.
    Ms. Bordallo. So you are satisfied, then, with the way it 
is going at this point?
    Secretary Geurts. I think we have work to go, ma'am. I 
think we are getting our arms around our immediate. And so I am 
more comfortable with our--that we have taken care of our 
immediate and had less loss availability than we had 2, 3 years 
ago, thanks to the hard work of a lot of folks across the 
system.
    My eye is really in the future. Now that we have kind of 
caught up to today, how do we make sure, as we build ships, we 
are building repair capacity both in the distributed fashion 
and in the depth we need to be able to handle that so we don't 
build our way into a crisis 5 years or 10 years from now. And 
that is where I think my focus will be. And I don't know if 
Admiral Moore wants to add a little bit more on the public 
yard.
    Ms. Bordallo. Okay. Thank you. Admiral.
    Admiral Moore. Thank you, ma'am, for the question.
    So the naval shipyards right now, we have had a concerted 
effort over the last couple years to grow the size. And we are 
ultimately, by the end of this fiscal year, we will be at 
36,100 personnel in the 4 naval shipyards. That is where we 
need to be from an end strength. That 36,100, it will be 
sufficient to maintain the 71 nuclear powered vessels we have 
today and eventually the 80 nuclear powered vessels we would 
have as part of the 355-ship Navy.
    An important component of that, though, as the Secretary 
alluded to, is also to make the investments in the naval 
shipyards themselves so that we can optimize the work going 
forward. So there--in addition to hiring the people, we need to 
upgrade dry docks, make sure they are available to support the 
future ships, CVN 78 and Block V Virginia-class submarines, and 
we need to recapitalize the equipment in our shipyards.
    And then we really need to make a concerted effort to 
optimize the layout of the shipyards so that the workforce in 
the future can be more productive than they are today. And that 
gets to an earlier question about the workforce and how do we 
maintain them.
    Ms. Bordallo. Yes. Thank you, Admiral. I have one quick 
question here, and it is for you.
    I understand that your number one priority for NAVSEA is 
the on-time delivery of ships and submarines. I admire your 
focus on the people and the talent management required to make 
this happen.
    Can you provide examples of how you intend to achieve that 
priority across a worldwide repair enterprise and how the 
strategic placement of ship repair facilities can help realize 
your number two command priority, a culture of affordability.
    Admiral Moore. Well, thank you for the question, ma'am. I 
would go back to some of what I just talked about.
    So I think growing the capacity of the 4 naval shipyards to 
36,100 will achieve the first point, on-time delivery of ships 
and submarine. And then it is absolutely critical that we get 
to the culture of affordability piece as well. And we have got 
to--not only do we have to deliver them on time, which, by 
itself, will start to drive cost down, then we have got to 
start driving the cost down as well.
    And the only way we are going to be able to do that is to 
provide an industrial repair base across 21st century naval 
shipyards that have new technology, new layouts, and is a place 
that we are going to be able to hire and retain the workforce 
in the future.
    Ms. Bordallo. Thank you.
    Thank you very much, and I yield back my time.
    Mr. Wittman. Thanks, Ms. Bordallo.
    I will now go to Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I am quite pleased to hear the talk about accelerating the 
move to 355. I just would like to emphasize, as we grow, I 
think we need to be making key investments in newer classes in 
addition to extending service lives. And it sounds like you 
gentlemen have indicated a similar world view today. And I 
appreciate, Admiral Merz, your clarifying point on your remarks 
from the conference earlier this week. And, you know, to 
paraphrase Mr. Byrne, I am not going to ask you about LCS. I am 
just going to talk about small surface combatants.
    But I do think we have an opportunity there, and we 
certainly have a lot of outside analyses that are telling us 
about the importance of ships like this. We have had the 2017 
CSBA [Center for Strategic and Budgetary Assessments] fleet 
architecture study which called for actually more than 70 small 
surface combatants rather than the Navy's current requirement 
for 52.
    So I just would ask if we wound up in a world in which 
Congress was providing additional small surface combatants 
beyond the required 52, would the Navy be able to successfully 
employ them in service of the combatant commander requirements, 
particularly just sort of as you look at the threats and the 
needs out there?
    Admiral Merz. Yes, sir. This is actually a very healthy 
discussion in the Pentagon. And the short answer is, you know, 
certainly, we can use all the ships. We are low to our 355. 
But, again, I always caution that that 355 is not a number in 
isolation. It is a derived number based on the numbers and 
lethality of each class of ship. Add them up and you get to 
355. And you and I have spoken about that.
    You know, that number, I think, is likely to, you know, 
change over time. I don't think it will go down. We just went 
through our series of studies to, you know, evaluate the 
components of the 355. There is variance in those numbers. They 
all said we needed to grow. And then--and the 355 was the most 
lethal mix to get there.
    The real point of your question of can we operate them. 
Therein lies the challenge. When we buy ships outside the 
battle force that don't make up the composite, that puts a 
stress on the readiness in the place of the ships that we do 
need.
    So if we choose to go down that route with Congress, I 
would only ask that we continue that discussion with Congress 
on sustainability of those ships as they come online, because 
they do have to be manned. Typically, we use a 70/30 split for 
the lifetime cost of a ship. It is about 30 percent to procure 
it, 70 percent to sustain it over the life of the ship. It is a 
little lower for the smaller ones because their lives are a 
little bit shorter. But the reality, there is a sustainment 
cost.
    And you can see in the shipbuilding plan, we are absolutely 
committed to the small surface combatant. We have--we like to 
talk in terms of the chicklets. Those chicklets go all the way 
across the chart. And there is a sustainment level that 
indicates that we see no future where we will not include a 
small surface combatant.
    Mr. Gallagher. On that point too, and following up on Mr. 
Byrne's line of questioning. I mean, obviously, you are going 
to have to make difficult decisions and tradeoffs between cost 
and capability. But without, you know, getting too far into a 
hypothetical, would it be fair to say you wouldn't want us to 
do anything that would--how can I put this--reduce the 
robustness of that competition, right? In other words, we all 
want a very open competition among different designs that will 
come in at different levels of cost and capability.
    Obviously, we all have different opinions on what the 
selection should be. But would it be fair to say you wouldn't 
want us to do anything to sort of, you know, preclude that 
competition?
    Secretary Geurts. Yes, sir, I think it would be--it is fair 
to say that. We all have a set of requirements. We have been 
transparent on those. And then we will run a competition that 
is fair and equitable. The more we can keep that a fair and 
equitable one without trying to intercede as we are working 
through that, I think the better we will all be.
    Mr. Gallagher. And then is the Navy thinking through--I 
mean, obviously the plan is ultimately to down-select and yet 
the SECNAV [Secretary of the Navy] has stated on multiple 
occasions, you have all stated on multiple occasions, given the 
importance of maintaining a healthy industrial base, we don't 
want to see any yards closing.
    Have you guys had the discussions about how to achieve that 
in a down-select environment?
    Secretary Geurts. Sir, I think that is something we are 
going to continue to have the dialogue about. I mean, there is 
a lot of variables that go into play there. But I think that is 
something where we have got to continue to work with you. It is 
a multivariant kind of equation, and it is something we need to 
look at closely to include how do we--how do we work repair, 
how do we work modernization, how do we look at the entirety of 
the requirement, not solely just new construction and, quite 
frankly, not just solely U.S. domestic construction.
    Mr. Gallagher. Sure.
    Thank you, gentlemen.
    Mr. Wittman. Thank you, Mr. Gallagher.
    We will now go to Mr. Garamendi.
    Mr. Garamendi. I am going to go to my favorite subject, 
which is make it in America. And we have had discussions, 
increasing discussions, about the sealift capacity. And in 
doing that, the question arises from TRANSCOM [U.S. 
Transportation Command] that, oh my God, we have got to have 
ships right now.
    We have not yet seen the proof of that. But if that is the 
case, then they have determined the only solution is to buy a 
foreign ship and then bring it back and then repurpose it here 
in the United States.
    If, in fact, that is the case, and if that is absolutely 
essential, and we have to have the ship sooner than you could 
build from start here in the United States, maybe we can work 
with that. But we must require that all of that repurposing, 
reconstruction be done in an American shipyard with American 
products. So just put that out there.
    The follow-on, you mentioned the common hull. Makes sense. 
Roll on, roll off, different configurations. All well and good, 
American built in American shipyards, with using the national 
defense sealift requirements. In other words, engines, anchors, 
all the rest of it American made. Many of the foreign engines, 
for example, in the LSCs, are foreign-made engines with 
companies that actually could make those engines in the United 
States if we were to require that.
    So as we move forward with this, I want to make it clear 
that we are--at least for this person, and I think I am in 
synchronization with the President's make it in America 
program, that we actually do that.
    And this brings us to the frigate. One of the designs for 
the frigate is to use the Coast Guard, national defense--excuse 
me--design. All well and good. However, that design was a 
foreign design and presently has foreign engines and a lot of 
foreign equipment in it. Not an acceptable transition from a 
Coast Guard national security cutter to a frigate. In other 
words, where is the buy America provision in it? Again, the 
language in the national sealift defense fund is restrictive. 
It is--I should say proscriptive for American-made ships.
    So I want to just put that out there. It is something that 
I am not going to let go of just--I am going to stay with it 
until we actually succeed. I do have problems with what the 
Coast Guard was able to do, and we are having discussions with 
them about their future ships.
    So having said that--I think I have said what I needed to 
say. I would like to have your response.
    Secretary Geurts. Certainly, sir.
    Mr. Garamendi. Just tell me you agree totally and let us 
write it into law.
    Secretary Geurts. Again, absolutely. Our industrial base, 
we have talked about it, and this committee has been very 
focused on it, and for all the right reasons. Our American 
industrial base is an element of our national security.
    So as we did the frigate competition, as we have got it set 
up, you could use a foreign parent design. But it had to be 
built here in America. And I don't have any issue with the 
premise that, you know, where we have got American products we 
can use them, that will be something we focus on.
    Happy to continue to have dialogue with you to get through 
all the different details both with the Ready Reserve and----
    Mr. Garamendi. Well, I am kind of past the dialogue into 
writing law.
    Secretary Geurts. Yes, sir.
    Mr. Garamendi. And then we can dialogue about how to get it 
done.
    The reality is that the engines that are being--in some of 
these ships, are made overseas. But the same company has a 
domestic manufacturing base. They just decide to do it overseas 
rather than do it here. That is not an acceptable situation. 
And it is the engines. It is the compressors and the pumps and 
the electronic gear, and on and on and on. Not just the hull.
    Secretary Geurts. I understand.
    Mr. Garamendi. So in some laws you could just do the hull 
and everything else could be made somewhere else. Not 
acceptable.
    Secretary Geurts. I understand.
    Mr. Garamendi. Enough said.
    Thank you very much.
    Mr. Wittman. Thank you, Mr. Garamendi.
    We now go to Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman.
    Just for clarification, Secretary Geurts, follow-up on Mr. 
Gallagher's question. I have listened to your testimony, I read 
your testimony. And we have seen a couple of reports, and that 
is all they were, is that maybe that the Navy was not committed 
to the 355 number, that maybe 342, 343. But you are telling me 
we are committed to 355.
    Secretary Geurts. Sir, we are committed to 355 at least.
    Dr. Abraham. Good to know.
    One quick question. You were talking about the pencil 
sharpening, watching the cost, which is certainly what we ask 
you to do in your job. There is an issue right now with the F-
35s with the DOD [Department of the Defense] maybe delaying 
some deliveries because there is a corrosion with the 
fasteners. Lockheed said, well, it is not our baby. DOD said, 
it is not ours.
    Is there something in your documents--and I know I am 
simplifying this on a very elemental basis, because I 
understand the complexity of these ships, but--that says like a 
warranty? First 12 years, anything breaks, you fix it?
    I mean, it seems like it would save so much back and forth 
and save money.
    Secretary Geurts. Yes, sir. And I will answer that quickly 
and ask Admiral Moore if he wants to add some more of the 
details.
    So we do both warranty, so there are pieces of the ship 
that were warranty components and whatnot for set periods of 
time depending on the contract.
    The other thing is we go through a very detailed, both 
builders trials and acceptance trials where builders trials, 
the builders got to prove the ship works and we write up, you 
know, anything that doesn't work. And then acceptance trials 
where we formally test out the ship. And if there is something 
that isn't right or isn't working, then we have got those that 
we work off before we take formal acceptance of the ship.
    Dr. Abraham. Okay. My concern is that even though you test 
all these things, it is manmade. Something is going to break 
eventually. And I just want to make sure that something is in 
place, that we don't have this tit for tat, you know, who is 
going to pay, who is going to pay. It seems like that would be 
simple to take in the front side instead of worrying on the 
back side.
    Secretary Geurts. It is in all our contracts, sir.
    Dr. Abraham. Thank you.
    That is all I got, Mr. Chairman.
    Mr. Wittman. Very good. Thank you, Dr. Abraham.
    We will now go to Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Mr. Geurts, I guess this question is for you, but you can 
pass it off if that is appropriate.
    To the extent that we reach a 355-ship battle force through 
service life extensions as opposed to new construction, are 
those ships going to have the full range of capabilities the 
planners assumed when they concluded that 355 ships would be 
sufficient to meet our needs?
    Secretary Geurts. Sure. I will start and then ask either of 
my compatriots here to jump in.
    So, again, when we extend either through a service life 
extension or class extension of a ship, that gives us some more 
time but doesn't necessarily change the capability of the ship 
nor fix things for the long term. So, again, as Admiral Merz 
said, when we do a class extension, that is good, because then 
we can plan for every ship in that. But that assumes we both 
maintain the ship and keep it modernized.
    I think as we look at the FSA in the future, we will look 
to make sure the capability we extend provides the capability 
we were looking for in that class requirement. And if not, then 
that would be factored into analysis. But, Bill, I will turn it 
to you.
    Admiral Merz. Yes, sir. Thanks for that question.
    Again, I guess to--a lot of dynamics in the shipbuilding 
plan. You know, how we determine the rate of build to 355 when 
we combined all the classes together, we assumed we were 
already at 355. And then how many ships do we have to build per 
year to sustain that. So as long as you are below that number, 
that will grow you over time. That was to ensure do we set the 
floor that we can no longer ever go below if we want to sustain 
a 355-ship Navy.
    I give you that explanation because that is absolutely 
fundamental as you bring in the service life extensions. The 
assumption is you are doing both. You cannot do one in place of 
the other. Or when the service lifes tap out, you are going to 
be in a worse spot than when you started.
    So it is a combined effort. We think we make that very 
clear. We are very committed to that new construction plan. If 
we can accelerate to our goal using service life extensions, as 
we advertise in the plan, we had work to do on that. We have 
done that work. We have shown we are able to do it. But the 
premise is that we continue to build new underneath as the 
foundation.
    Mr. McEachin. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wittman. Thank you, Mr. McEachin.
    We will now go to Mr. Norcross.
    Mr. Norcross. Thank you, Chairman, and the witnesses for 
being here today and addressing some of the questions.
    You know, how can we not talk about capacity at this point 
except I don't have the base that I have to take care of. I 
have the entire world, so to speak, to take care of.
    When we start talking about some of the conversation we had 
here today, critical industrial base, stable predictable 
workforce and base, when we look at the way that we are trying 
to anticipate the capacity of our shipbuilding industry here in 
the United States, many factors go into that. Certainly, you 
talked about the capacity, capabilities, and readiness can be 
talked about from the sense of us being ready. You have the 
physical structures, the yards, the workforce, the experience 
of that, the suppliers, materials. Those are things that you 
normally would take into account.
    When you are trying to determine whether or not there is 
capacity in the future, do you look at acquisition reform and 
some of the things we can do, the mistakes we made in the past? 
How do we make that better?
    Secretary Geurts. Yes, sir. And, again, I think it is 
incumbent that the--we are always looking at that and that the 
solution to this isn't just more money or just doing more of 
the things we have always done. And so my job within the Navy 
is to continue to drive affordability. Some of that is through 
tool mechanisms like block buys or multiyear programs, as we 
are talking about doing in the carrier.
    Some of that is properly setting up incentives so we can 
work directly with the shipyards to drive cost out of programs 
like you are seeing us drive cost out of the carrier programs, 
some of these other programs. Because ultimately my goal is how 
can I deliver the most for the dollar that the taxpayer puts 
towards this problem. And we have got to continually work on 
that.
    Another opportunity space I would say just, sir, is on the 
readiness side. How do we drive the cost to keep these ships 
ready and available is another key component that we are going 
to focus on.
    Mr. Norcross. So that combines when you are looking at are 
we going to make it in a reasonable amount of years, 
technology, innovation drives that, but also supplier base. And 
there are many other parts of the military that is going to the 
same possible well for that. Do you take that into 
consideration, because they are building up just like we are in 
a different way, but the suppliers are common.
    Secretary Geurts. Yes, sir. And I would say that, you know, 
the suppliers are the golden, kind of pivot point with which we 
are really going to get speed and drive affordability down.
    Mr. Norcross. I would like to think it is the workforce 
that is that key, because that is the one that takes so long to 
develop, which brings me to one of the points. If you ever lost 
faith in America in this industrial base, go up to Electric 
Boat [EB] where we were. It gives you the faith that when we 
set our minds to it, we can do anything. The problem is trying 
to maintain that facility at a common pace that you are not 
going to lose that workforce or get taken by another.
    What mechanism do you have in place to continue that? We 
have tried to fit in some programs, keep a stable work base, 
but it is coming from somebody else's workforce. How do you 
address that?
    Secretary Geurts. Sir, a couple different areas. One is 
like the 10-ship multiyear buy, so now that workforce knows 
they have got both at Newport and at EB, they know they got a 
stable set of work coming through there. Another opportunity is 
looking at where we have common suppliers between Ford class, 
Columbia, and Virginia, and treating those suppliers outside of 
just their individual program, looking at them as a supply base 
that is supporting all three. That is another area.
    And then, again, how do we leverage technology to enable us 
to bring in large--you know, continue to rejuvenate that 
workforce and get them trained up as quickly as we can, 
especially where we are growing the workforce.
    Mr. Norcross. Is there a number you would put on it that we 
are going to increase capacity by 20 percent, 15, 5? What 
number do you have right now?
    Secretary Geurts. I would say it depends on which segment, 
but you know, our biggest probably challenge area is going to 
be in the submarine force, specifically at EB with Columbia and 
us maintaining at least two new Virginias per year. That is 
probably the largest looming workforce growth that we are going 
to see, but it kind of depends on each individual yard and 
program.
    Mr. Norcross. Thank you. I yield back.
    Mr. Wittman. Thank you, Mr. Norcross. Secretary Geurts, I 
wanted to get your viewpoint on hospital ships. You know, we 
talk about support ships, we talk about lift, but I think 
looking at the future and what the Navy needs to do, those 
hospital ships are key, and we see what they do, not only for 
our services, but also what it allows us to do during times of 
humanitarian need.
    And the Navy's plan to essentially do a service life 
extension on the Comfort, I think, becomes more of a challenge 
than what I think this Nation is willing to accept as far as 
the risk that it poses to us.
    Can you give us your perspective? Has the Navy relooked at 
how they are going to recapitalize our hospital ships and what 
do you think the future is for that capacity, which is maybe 
not a direct strategic capacity, but I think it is a very, very 
necessary support capacity for this Navy and the humanitarian 
capacity for this Nation.
    Secretary Geurts. Yes, sir. And I will turn over to Admiral 
Merz on the requirements--how we are thinking about the 
requirement in the future.
    My first point was, you know, in the shipbuilding plan we 
are showing one of those ships right now doing--you know, 
without any other thing will go away. We are not going to let 
that go away. So I want to assure the committee there is no 
plan to erode any of the hospital ship capacity we have.
    We are relooking, though, into the future, is that 
adequate, and is there perhaps a different way to look at that? 
And, again, a hospital ship has different roles and different 
levels of care. And I would pass to Admiral Merz a little bit 
to talk about how we are thinking from a requirement 
standpoint, and what is our look at that requirement for the 
future.
    Admiral Merz. Yes, sir, Mr. Chairman. So, you know, clearly 
how we handle our casualties has been a hallmark of the entire 
U.S. military, not specific to the Marines, Army, Navy, or Air 
Force or even the Coast Guard. So we have made plans to do a 
service life extension of both ships, that is a Role 3-level 
capability, those are floating hospitals.
    The problem with those ships is there is only two of them 
and they are big. And we are moving to a more distributed 
maritime operation construct. So we have recently commissioned 
what we call a requirements evaluation team to look at intra-
theater missions, and there is a whole collection of missions 
that we are trying to get our arms around. One of them is a 
distributed hospital capability.
    And these are going to be fairly challenging requirements. 
It is going to have to be able to support V-22, for instance, 
so how you manage the size of that and the speed and how it is 
going to go. So there is no lack of commitment. As a matter of 
fact, we are taking a broader look at the capabilities on 
whether or not they are aligned with the way we plan to fight 
our--fight our future battles.
    So you are going to see our requirement probably surface 
here this year, and then we will start the process on how we 
are going to fill that requirement.
    Mr. Wittman. Thank you. I know there has been a lot of 
discussion about, as you said, one large ship, multiple smaller 
ships, as you said, with capability of landing aircraft that 
could be bringing in the wounded. Have you all looked at some 
of the existing platforms, maybe something like JHSF, or joint 
high speed vessel, JHSV, I should say, or EPF as it is termed 
now, expeditionary fast transport, as a potential within that 
realm?
    Admiral Merz. So, yes, sir. Everything is a potential. So 
when we--when we levy the requirements on--actually that is not 
even a good word because we are probably going to follow the 
model used with the frigate where industry was actually part of 
the requirements discussion, which we think is already bearing 
fruit with the spectrum of designs that we get to work through.
    So whether a shipbuilder wants to attack these requirements 
from a new platform perspective or modifications to an 
existing, that is really up to them, and we will compete that 
accordingly.
    Mr. Wittman. Very good, thanks.
    Admiral Moore, I wanted to pick your brain about how we 
address the drop in SSNs that is going to occur in 2029 down to 
42. Obviously, we on the committee, have addressed going to 
three submarines per year starting in 2020, but that only 
brings us an additional three ships before we get into Virginia 
Payload Module construction. So we go then from 42 to 45, which 
while good is not the significant increase that we need.
    There has been a proposal laid out there to take five 
existing nuclear plants that are right now in reserve and 
putting them into Los Angeles-class submarines to give them 
significant service life extension.
    Can you give us perspective on where the Navy is with that? 
Is that just a concept? Is it at the point where you-all are 
pursuing that? I know we had some conversations with Admiral 
Caldwell from Naval Reactors, but I wanted to get your 
perspective on how you see it at NAVSEA, and where you are in 
the process. Is it just a concept that is being floated? Are 
you pursuing this as an operational effort? Give us perspective 
on where things are.
    Admiral Moore. Yeah, thanks for the question, sir. No, it 
is not just a concept. We are actively pursuing that. I think 
it is in the budget. We have done the technical work on these 
five submarines to allow us to get the additional service life 
out of them.
    Submarines pose a little bit more of a challenge in terms 
of a class extension because of the fact that they submerge and 
there are some technical issues associated with them that we 
don't have on surface ships. So, I don't know that we are going 
to get beyond--from a class extension standpoint beyond about 
the 35 years that the Virginia class and the Los Angeles class 
are at today. We will continue to look at this hull by hull.
    In this particular case, we had five additional cores 
available, presented us with an opportunity to get some SSN 
accelerated back into the fleet. And so between Naval Reactors 
and NAVSEA we found some hulls that we could sharpen our 
pencils on, and we are confident, technically, that they can 
get to the extended service life that they have been asked to 
get to.
    Mr. Wittman. Very good, thank you.
    Secretary Geurts, I wanted to follow up on a visit we had 
earlier in the week at Bath Iron Works. We talked to them about 
the multiyear procurement for destroyers. And it seems like the 
Navy is still in the paradigm that they pursued with the 
previous acquisition and have not really followed up on the 
additional authorities that were given in the fiscal year 2018 
NDAA.
    And I wanted to get your perspective because from what we 
are seeing is that the layout is a 10-ship purchase combination 
between HII [Huntington Ingalls Industries] and Bath, 5/5, 6/4, 
4/6, and all those different scenarios. And then the additional 
five that are authorized would essentially be one-offs.
    And we understand that when you do multi-ship procurement, 
I think it is everybody's intention, it is certainly our 
intention, is to do the full 15 rather than 10 and then one-
off, because we think the 10 and one-off actually adds 
additional cost. We know the greater certainty you have there 
the better it is for the yards, and we all know the sand charts 
that you talked about, the roller-coaster ride that they go 
through, and the uncertainty it creates for both yards.
    So give me a perspective. Is there any additional work the 
Navy is going to do in looking at the 15 authorization that we 
gave in last year's NDAA and reflect that in the acquisition 
strategy?
    Secretary Geurts. Yes, sir. I would say, you know, 
generically, the more you can put the requirements upfront into 
the multiyear the better. I would say this is unique because it 
is a competitive situation. And so to put options in, that 
would just--if we are not careful, that would greatly--you 
could have so many different options, it would be hard to get a 
good competition. So we felt the best balance was compete the 
10 in the multiyear, and then put in price options for those 
ships so that that gives us some flexibility, and then compete 
each of those as individual options.
    We felt that was the best balance to strike with the two 
since we ran a competitive--kind of rolling competitive 
multiyear, a little bit different than, say, when we are doing 
a multiyear with a sole source provider. So I would say that 
the inequities of that competition drove a little different 
thinking than the way we traditionally approached adding more 
ships as a potential option in multiyear.
    Mr. Wittman. Would that decision have anything to do with 
the different elements on the platform? I know we had talked 
about different radars, the upgraded AMDR [air and missile 
defense radar] SPY-6 radar, and the things that go in with the 
design on Flight IIAs versus Flight IIIs. Is that any element 
of that decision----
    Secretary Geurts. No, sir, because these are all Flight 
IIIs. So they are all constant ships. And I think we will--
again, we have got a little unique situation trying to do this 
in a competitive situation. Well, we will look at it closely. 
We are getting feedback from the shipbuilders and we will take 
lessons learned and apply those as we look at future 
situations.
    Mr. Wittman. I just want to make sure we were firm in 
knowing that it is 15 Flight IIIs. So, very good. Thanks.
    Mr. Geurts. Yes, sir.
    Mr. Wittman. Now I go to Mr. Moulton.
    Mr. Moulton. Mr. Chairman, thank you very much. Gentlemen, 
my questions are a bit more high level, just about how you came 
up with this requirement for a 355-ship Navy. We are fond of 
saying here in Congress that we are trying to go back to the 
Reagan days when that was the number that was out there. That 
strikes me as an interesting comparison given that technology 
has changed quite a bit.
    So can you give me just a very quick insight into why that 
number makes sense?
    Admiral Merz. Yes, sir. So there is a pretty rigorous 
process that we go through when we do a force structure 
assessment. Typically it starts with the combatant commanders 
and what their needs are, and that is balanced against the war 
plans that they have to execute. Then we apply a broad range of 
risk factors. I mean, we can't fight everyplace in the world at 
the same time, so we start shrinking it down to an acceptable 
risk level. Then we study it.
    In this particular case there were three independent 
studies that went against the 355, and then we red-teamed it. 
And in the end that is the number that held. There were other 
numbers in the mix, they were all right around that level. But 
it is important to understand that the 355 is a derived number. 
We look at each type of ship, the lethality needed to bring, 
the numbers it needs to bring. We add those all up and that is 
how you get----
    Mr. Moulton. So how many--in that analysis, how many 
autonomous ships do you calculate that we need?
    Admiral Merz. So currently we do not count autonomous ships 
against the ship count, the 355 ships.
    Mr. Moulton. But all the experts say that that is the kind 
of warfare that we will be fighting in a few years, so why 
would you not include those in the count?
    Admiral Merz. So we likely will in the future. We actually 
stayed in the shipbuilding plan that we are studying closely. 
We do account for them in the sensors and weapons arenas, but 
we do not account for them yet in ship count.
    Mr. Moulton. How soon do you think we will have autonomous 
ships in our Navy?
    Admiral Merz. Well, there is a----
    Mr. Moulton. Autonomous ships, autonomous vehicles, 
whatever you want to call them. How soon do you think we will 
have them?
    Admiral Merz. Exactly. You finished my sentence for me. 
That is exactly what I was moving towards. So how--it really 
just depends on when we start fielding them. We have three 
pretty solid candidates for the autonomous surface fleet. We 
have a family of four different size on undersea vehicles. All 
these are still yet to be employed in the fleet. As a matter of 
fact, we are looking at moving the most mature surface vehicle 
from San Diego out to what we call the RIMPAC [Rim of the 
Pacific] exercise this year to see how it does----
    Mr. Moulton. Would you say the next 5 years, the next 10 
years? My understanding is that China and Russia are every bit 
on par with us in terms of fielding these types of vehicles or 
ships.
    Admiral Merz. So 5 to 10 years, I think, is definitely in 
the target range of what we are----
    Mr. Moulton. Right. So we are building a 355-ship Navy that 
doesn't include these autonomous ships, which will be a clear 
component of our Navy warfighting machine in the next 5 to 10 
years. It is not like these 355 ships have a 5- to 10-year 
lifespan.
    Admiral Merz. So to be clear, they are included in the Navy 
capability envelope, they are just not accountable 355 battle 
force ships. So you got to remember, we have 355 battle force 
ships. We have 15 MSC [Military Sealift Command] ships. We have 
our unmanned vehicles. We have a lot of ships that fall outside 
the accountable 355 battle force. It doesn't mean we are not 
interested in it, it doesn't mean we are not investing in them, 
it is just that they don't count against the numbers of 
lethality that we have set to that----
    Mr. Moulton. But how can it not count against those numbers 
when they are going to be a clear component of our lethality? I 
mean, there is a big difference----
    Admiral Merz. They are going to be. They are not yet----
    Mr. Moulton. Okay. So the disconnect here, to me, is we are 
building a 355-ship Navy today. Those 355 ships are going to 
last us much longer than the next 5 or 10 years. I don't 
understand how you cannot account for these advances in 
technology, which will necessarily replace some of these ships.
    And it strikes me that it is like saying, oh, the Reagan 
years, the glory years in our defense, we had X number of 
computers, so therefore, we should have the same number of 
computers today, when we all know computers do vastly different 
jobs and we need vastly different numbers of computers to 
compete in today's world.
    Sir.
    Mr. Wittman. If I can interject here. Actually, the three 
studies that were done, the MITRE study, the CSBA study, and 
the Navy study included in-depth analysis of all these unmanned 
platforms. So the Navy plan and the 355 do include that as a 
total Navy force structure. So the element of what you count as 
the warship and what you count as an unmanned platform, and how 
those are deployed from those other manned platforms is how you 
integrate that particular force.
    So we can make sure we get you a brief on these other three 
independent studies that went into length about how you 
integrate these unmanned systems into the existing force 
structure. And, again, it is tangential to the 355-ship Navy, 
that is a support element of what would happen with these 
unmanned platforms.
    Mr. Moulton. Mr. Chairman, I would be very interested in 
seeing that. Because my understanding is that China and Russia 
are not just looking at integrating these new technologies into 
their old-fashion Navy, but rather they are looking at the 
ability of these technologies to replace them, to make them 
more lethal and effective at a lower cost.
    Mr. Wittman. And we already have one at sea right now. Sea 
Hunter right now is at sea. It is surface ship, it is an 
unmanned surface ship, it is operating autonomously in the 
Pacific as we speak today.
    Mr. Moulton. And that is my point. This stuff is happening 
quickly.
    Mr. Wittman. Yeah.
    Mr. Moulton. So to be looking at--you know, our goal is to 
have a Navy that looks like the 1980s, when already our Navy is 
looking very different than that, strikes me as a little bit of 
a disconnect in our research. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you. Thank you. Thank you. And we will 
make sure we get that to you. I think there is some great 
information out on there how this is integrated. And I would 
ask, too, for Admiral Merz, if you would make sure, too, that 
we can get Mr. Moulton a brief, because I think you will be 
interested. Especially, the real details, we need to get you in 
the SCIF [sensitive compartmented information facility], and 
get the classified brief. There is a lot of really good stuff 
that is going on out there.
    Mr. Moulton. Thank you, Mr. Chairman. And, look, the 
message--I have not been at every classified brief, I have at 
many of them.
    Mr. Wittman. Yes.
    Mr. Moulton. The message I have taken away from them is 
that this technology is advancing very, very rapidly. And in 
order to be competitive with our peer adversaries, we have to 
be on the cutting edge of that, and sometimes it might take 
sacrificing the money that would go to a traditional ship in 
order to give us the capability in the numbers required to 
compete in this new battlefield. But I would be very interested 
to see the studies and I appreciate your leadership, Mr. 
Chairman.
    Mr. Wittman. Admiral Merz, I think you wanted to add 
something?
    Admiral Merz. Yes, sir. I was just going to follow up on 
that remark. We actually have significant investment across all 
the unmanned vehicles, and we are happy to bring you a brief on 
all of those capabilities that we are bringing forward.
    Mr. Moulton. I appreciate it. Ultimately, as with all of 
this, it is a tradeoff. I mean, I was very, very low-tech 
military, just ground pounding in the infantry, but it is 
like--just like we had to think about every piece of gear that 
we would have liked to have, you know, how much did it cost to 
get it? How much did it cost in weight to carry it? We had to 
be very careful about which pieces of gear we actually chose to 
get.
    Admiral Merz. Sir, I think we will show you, we share your 
enthusiasm. And even the infantry guys have unmanned systems 
now, so we are moving out on it.
    Mr. Moulton. I know you share my enthusiasm. I also know 
that there is not a combatant commander in history that when 
told he could have more ships or fewer ships would ever say 
fewer ships off the bat. But if really given the big budgetary 
picture, you know, might make a different decision.
    Thank you for this discussion, I appreciate it. And thanks, 
Mr. Chairman.
    Mr. Wittman. Thanks. And thanks, Mr. Moulton, appreciate 
it. Any further questions from the panel? Well, gentlemen, 
thanks again. Thanks for joining us today.
    Thanks for your input and your thoughts. We will make sure 
we continue this dialogue as we are on the path to a 355-ship 
Navy, which includes a very robust element of unmanned systems 
also. And we appreciate all that you provide to us, your 
thoughts, your guidance, and the cooperation that it is going 
to take for us to get there as quickly as we can.
    With that, if there are no further questions, we stand 
adjourned.
    [Whereupon, at 4:57 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 12, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 12, 2018

=======================================================================

      

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                [all]
</pre></body></html>
